Department of Homeland Security
   Ofﬁce of Inspector General

              Management and Oversight of 

        Immigration and Customs Enforcement 

   Office of International Affairs Internal Controls for 

    Acquisitions and Employee Integrity Processes





OIG-10-38                                       January 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      January 25, 2010

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of Immigration and Customs
Enforcement Office of International Affairs internal controls for acquisitions and
employee integrity processes. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................8


     Improvements Have Been Made; Vulnerabilities Remain in Overseas Procurement ...8 

     Recommendations........................................................................................................11 

     Management Comments and OIG Analysis ................................................................12 


     ICE OIA Needs to Improve Oversight of Field Offices ..............................................12 

     Recommendations........................................................................................................17 

     Management Comments and OIG Analysis ................................................................17 


     ICE OIA Needs to Ensure Compliance With Foreign Tour of Duty Policy................18 

     Recommendations........................................................................................................20 

     Management Comments and OIG Analysis ................................................................20 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................21 

     Appendix B:           Management Comments to the Draft Report .......................................22 

     Appendix C:           ICE Assistant Secretary Memorandum to DHS Deputy Secretary......25 

     Appendix D:           Major Contributors to This Report ......................................................31 

     Appendix E:           Report Distribution ..............................................................................32 


Abbreviations
     DHS                   Department of Homeland Security
     DOS                   Department of State
     DOSAR                 Department of State Acquisition Regulation
     FAR                   Federal Acquisition Regulation
     FMC                   Financial Management Center
     FY                    Fiscal Year
     GAO                   Government Accountability Office
     GSO                   General Services Office
     ICE                   Immigration and Customs Enforcement
     ICECAPS               Immigration and Customs Enforcement Contract and Acquisition Procedures
     IT                    Information Technology
     OAQ                   Office of Acquisition Management, Immigration and Customs Enforcement
     OIA                   Office of International Affairs, Immigration and Customs Enforcement
     OIG                   Office of Inspector General
     OPR                   Office of Professional Responsibility, Immigration and Customs Enforcement
     SIP                   Self Inspection Program
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                         The criminal investigation of a senior U.S. Immigration and
                         Customs Enforcement Office of International Affairs official
                         identified potential vulnerabilities in a number of internal controls.
                         Internal controls are vital in managing an organization and helping
                         prevent fraud, waste, and abuse. We reviewed what management
                         review and oversight is performed to ensure that employees
                         understand and are following applicable procurement policies and
                         procedures. We assessed the effectiveness of internal controls to
                         prevent or detect the unauthorized acquisition, use, or disposition of
                         assets. We also reviewed whether policies and procedures are tested
                         periodically to ensure that internal controls are working as intended.

                         Immigration and Customs Enforcement has made improvements to
                         its policies, procedures, and internal controls. Specifically,
                         acquisition procedures for both armored and non-armored vehicles
                         for overseas offices have been improved. In addition, a policy
                         change regarding the use of liaison expenditure funds requires
                         additional documentation and prior headquarters approval for the
                         use of specific levels of funds.

                         However, Immigration and Customs Enforcement needs additional
                         controls to address remaining vulnerabilities. We are
                         recommending that Immigration and Customs Enforcement develop
                         and implement control measures over acquisitions abroad, as well as
                         a plan to oversee acquisition activities. In addition, we are
                         recommending that Immigration and Customs Enforcement provide
                         additional guidance to staff overseas to ensure that they understand
                         their roles and responsibilities in managing property. Finally, we
                         are recommending that Immigration and Customs Enforcement
                         establish procedures to track compliance with the foreign tour of
                         duty policy.




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                 Page 1
Background
                        The criminal investigation of a senior U.S. Immigration and
                        Customs Enforcement (ICE) Office of International Affairs (OIA)
                        supervisory official identified potential vulnerabilities in a number
                        of ICE OIA internal controls. Specifically, the investigation
                        identified potential vulnerabilities in acquisitions processes and
                        human resources policies. These vulnerabilities enabled the senior
                        ICE OIA official to be involved in, and achieve personal gain
                        from, several fraudulent activities. The senior official
                        subsequently pled guilty and was convicted of the charges against
                        him. When ICE learned of the senior official’s activities, they
                        conducted a review of policies, procedures, and existing internal
                        controls and implemented changes to prevent other ICE employees
                        from taking advantage of the vulnerabilities.

                        ICE Office of International Affairs

                        ICE OIA has 54 offices in U.S. embassies and consulates in 42
                        countries. ICE personnel overseas coordinate investigations with
                        foreign law enforcement counterparts and acquire and develop
                        intelligence related to cross-border criminal activities involving
                        people, goods, and technology. In addition, ICE personnel provide
                        investigative case support to domestic and international ICE
                        offices, refer requests from host country agencies to ICE domestic
                        investigative offices, and assist in removal operations by
                        coordinating ICE efforts to transport removed aliens to their
                        countries of origin. An ICE attaché or assistant attaché directs
                        each overseas office.

                        ICE OIA headquarters is organized into three divisions.
                        International Operations works to identify, disrupt, and dismantle
                        transnational criminal organizations; provides oversight for ICE
                        investigations conducted abroad; and coordinates and supports
                        domestic investigations within ICE and with DHS and foreign
                        counterparts.

                        ICE OIA Mission Support provides administrative guidance and
                        financial support to ICE OIA operations and investigations. The
                        division’s responsibilities include hiring and recruiting; time and
                        attendance; personnel management; relocations and rotations;
                        managing budget formulations and accounts, financial resources,
                        and analysis; contracting and procurement; property and inventory;
                        fleet management; travel administration; and developing document
                        retention and records management practices.


Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 2
                            The International Programs division manages ICE OIA’s
                            international programs and policy, including ICE involvement in
                            multilateral organizations; coordination of international training
                            and assistance; liaison with external agencies, such as Interpol or
                            the Department of State (DOS); and the Visa Security Program.

                            ICE Office of International Affairs Internal Controls

                            In a September 2007 memorandum, after learning of the senior
                            official’s criminal activities, the ICE Assistant Secretary informed
                            the DHS Deputy Secretary of ICE OIA’s current and planned
                            actions to ensure that all ICE OIA employees understand and
                            follow the procedures related to acquisitions, human resources,
                            ethics, and integrity awareness, and ensure that ICE OIA
                            management monitors those activities.1 According to the
                            memorandum, ICE OIA constantly evaluates its policies,
                            procedures, and guidance to provide oversight of ICE OIA
                            employees. Until new policies and procedures are developed, ICE
                            OIA continues to use preexisting policies from legacy agencies and
                            interim guidance.

                            Overseas offices receive acquisition support from DOS personnel
                            who are responsible for executing procurement contracts in
                            accordance with federal and DOS regulations, policies, and
                            procedures. ICE OIA receives a report from DOS of all
                            contractual actions executed on behalf of ICE. According to the
                            September 2007 memorandum, the ICE Office of Acquisition
                            Management (OAQ) will review the reports and randomly sample
                            transactions to ensure that ICE OIA offices maintain proper
                            supporting documentation, including justification for the use of
                            noncompetitive procedures. As an additional internal control,
                            attaché offices must submit written requests through their
                            headquarters operations manager to fund items not included in
                            their current budget. After reviewing the request for completeness,
                            accuracy, and justification, the desk officer forwards the request to
                            the appropriate management level for approval based on the
                            amount of the request. All requests exceeding $25,000 require the
                            ICE OIA director’s approval.

                            ICE Office of Professional Responsibility (OPR) and Employee
                            Labor Relations vets individuals selected for ICE OIA overseas
                            positions. Individuals must pass a background investigation to
                            determine their suitability for employment and before being
                            granted a security clearance. Prior to deployment, individuals

1
    See appendix C for a copy of the memorandum.

    Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                    Page 3
                        attend orientation training at ICE OIA headquarters, which
                        addresses mission-oriented programs and processes.

                        According to the memorandum, ICE OIA ensures compliance with
                        integrity expectations through formal policies, training, oversight,
                        and an office self-inspection process. In addition to predeployment
                        training, employees receive additional training when they arrive at
                        their overseas assignment. All ICE OIA employees also
                        participate in annual mandatory training through ICE’s Virtual
                        University. That training includes integrity, computer security,
                        and prevention of sexual harassment. In addition, general ethics
                        training has been incorporated into the curriculum at regional
                        attaché conferences.

                        Self Inspection Program

                        The Self Inspection Program (SIP) is designed to build
                        management accountability and foster professional integrity by
                        evaluating offices on core areas that are susceptible to corruption,
                        vulnerability, or are critical to mission performance. The overall
                        ICE-wide management of the SIP is the responsibility of the OPR
                        Management Inspection Unit. Because ICE OIA was part of the
                        ICE Office of Investigations until February 2007, all ICE OIA
                        offices completed the ICE Office of Investigations SIP annually
                        prior to 2007. In February 2007, ICE OIA began working with
                        OPR to create an OIA-specific self-inspection program to address
                        the unique characteristics of the international environment.

                        During self-inspections, each ICE office reviews its practices in
                        specific areas using worksheets designed by ICE OPR. The
                        worksheets cover universal core areas that apply to all ICE
                        components plus areas unique to one or more, but not all, ICE
                        components, such as ICE OIA. For example, both ICE OIA and
                        the Office of Investigations would inspect their case management
                        practices, but this area would not be applicable for Detention and
                        Removal Operations. ICE OPR notifies component offices that
                        they must complete a self-inspection of their office within a
                        specified period. During the designated period, each office in that
                        component retrieves the worksheets from OPR and completes a
                        self-inspection. The principal officer for each office—the attaché
                        for ICE OIA offices abroad—then certifies the self-inspection
                        results and submits a certification memorandum and audit trail
                        documentation to ICE OPR. Offices are required to maintain the
                        records of the self-inspection for three fiscal years following
                        completion.


Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 4
                        ICE OPR oversees the content of the SIP and adds or removes
                        areas and activities as appropriate for future years. For the initial
                        OIA-specific SIP conducted in April 2009, the universal areas
                        were management responsibilities, travel administration, purchase
                        card, asset management, and information technology (IT) security.
                        Examples of specific activities reviewed in these areas included
                        whether travel authorizations and vouchers were filed timely and
                        whether employees have completed mandatory training classes.
                        The additional areas included specifically for ICE OIA included
                        case management, confidential informants, financial
                        responsibilities, and firearms program. Examples of specific
                        activities reviewed in these areas included whether investigative
                        cases were opened and initial case reports were filed timely and
                        whether liaison expenditures were appropriately documented.

                        In addition to the SIP, both OPR and ICE OIA management
                        conduct field inspections of a sample of attaché offices. OPR’s
                        Management Inspection Unit tries to conduct full field inspections
                        of each ICE office, including overseas offices, every four years.
                        During its field inspections, OPR performs an in-depth review of
                        the office’s operations and records, including a review of the
                        office’s SIP results and verification of their accuracy. Upon
                        completion of the field inspection, OPR issues a report identifying
                        any deficiencies and makes recommendations as appropriate. The
                        office then has 45 days to create a corrective action plan to address
                        any deficiencies. OPR tracks deficiencies in a database for both
                        self-inspections and field inspections.

                        ICE OIA management bases its field inspections of attaché offices
                        on the SIP. However, according to a senior ICE OIA official, ICE
                        OIA concentrates more on management responsibilities while OPR
                        concentrates more on the other SIP areas. The OIA inspection
                        team reviews and verifies the office’s SIP worksheets and
                        documentation during its field inspection. ICE OIA committed to
                        conducting field inspections of a selection of attaché offices each
                        year. In fiscal year (FY) 2008, ICE OIA conducted inspections at
                        11 overseas offices. ICE OIA management is still determining
                        how and when offices will be selected for field inspections, but
                        plans to inspect each attaché office every four years.

                        Internal Control Requirements

                        Implementing appropriate internal controls is vital to achieving an
                        agency’s mission and goals and helping prevent fraud, waste, and
                        abuse. Internal controls include the organization, plans, policies,
                        and procedures established to meet an agency’s mission, goals, and

Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 5
                            objectives. The Federal Managers Financial Integrity Act of 1982
                            requires each executive agency head to establish internal controls
                            that reasonably ensure effective and efficient government
                            operations, reliable financial reporting, and compliance with
                            applicable laws and regulations.2 Office of Management and
                            Budget Circular A-123 provides internal control standards and
                            guidance for executive agency managers regarding developing,
                            assessing, correcting, and reporting on internal control.3 The
                            circular also describes management’s responsibility for developing
                            and maintaining internal controls that meet the Act’s objectives.

                            According to the U.S. Government Accountability Office (GAO),
                            internal controls serve as the first line of defense in safeguarding
                            assets and preventing and detecting errors and fraud. Internal
                            controls provide reasonable, although not absolute, assurance of
                            the prevention or prompt detection of the unauthorized acquisition,
                            use, or disposition of funds, property, and other assets. Federal
                            program managers set the objectives, establish control processes,
                            monitor, and evaluate the controls.

                            The following five standards for internal controls outline the
                            minimum level of quality acceptable for internal controls in the
                            federal government:

                                 �   control environment,
                                 �   risk assessment,
                                 �   control activities,
                                 �   information and communications, and
                                 �   monitoring.

                            The control environment provides the foundation for all the other
                            standards. A positive control environment encompasses many
                            factors, including senior management establishing and promoting
                            values and guidance for integrity, ethics, and proper behavior, as
                            well as appropriately disciplining staff when necessary. Other
                            factors affecting a positive control environment include the
                            agency’s organizational structure and clear definitions and
                            delegation of authorities and responsibilities.

                            An agency’s control activities help ensure that risks are addressed.
                            They include policies and procedures that cover the following:

                                 �   physical control of vulnerable assets,

2
    31 USC 3512(c)(1) 

3
    OMB Circular No. A-123, Revised, December 21, 2004. 


    Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                    Page 6
                             �	 segregation of duties,
                             �	 authorization and implementation of transactions involving
                                agency resources by authorized staff, and
                             �	 creation and maintenance of records and documentation
                                demonstrating proper implementation of these activities.

                        ICE OIA Overseas Procurement

                        ICE OIA offices located outside the United States must follow the
                        same requirements and regulations pertaining to acquisitions that
                        ICE domestic offices and other federal executive agencies must
                        follow when acquiring goods and services. The Federal
                        Acquisition Regulation (FAR) governs federal acquisitions of
                        goods and services using appropriated funds. To facilitate
                        compliance with the FAR by all ICE offices, ICE OAQ established
                        ICE Contracts and Acquisition Procedures (ICECAPS), which
                        specify required steps to be followed throughout the acquisitions
                        process. Because DOS provides on-site acquisition support for
                        foreign ICE offices, ICE overseas procurements also must adhere
                        to DOS acquisitions regulations and requirements.

                        DOS supports ICE OIA overseas procurements through the
                        General Services Office (GSO) and Financial Management Center
                        (FMC) at U.S. embassies and consulates. GSO contracting officers
                        are the federal government’s authorized agents for soliciting offers
                        and for negotiating, awarding, modifying, and terminating
                        contracts at U.S. posts abroad. GSO’s procurement and
                        shipping/receiving staff also support the acquisition process. FMC
                        personnel obtain funding and account information from the ICE
                        attaché office and execute payment to vendors.

                        ICE OIA begins the acquisitions process by submitting an attaché-
                        approved procurement request to GSO. GSO searches for vendors,
                        obtains price information, gets quotes as required by federal
                        regulations, and collaborates with ICE OIA to ensure the
                        requirements are met. Once a vendor is selected, GSO creates a
                        purchase order and sends it to ICE OIA for approval. ICE OIA
                        reviews the purchase order, which the attaché signs if approved,
                        and ensures funds availability. GSO then works with the vendor to
                        complete the purchase. Once received, either ICE OIA or the GSO
                        Receiving Office confirms receipt of the good or service, and then
                        GSO sends the invoice to FMC for payment. Typically, FMC staff
                        review the contract, purchase order, and vendor invoice to verify
                        that the information is correct and execute payment. Although the
                        procurement process varies at each overseas post, figure 1 below
                        illustrates the general acquisitions process for ICE attaché offices.

Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 7
                                                   Overseas Acquisitions Process

                                  ICE OIA                       DOS GSO                   DOS FMC




                                Determines that
                               goods or services
                                 are required




                                                              Solicits offers to find
                                Submits signed
                                                              vendors and obtain
                               Purchase Request
                                                                  price quotes




                               Ensures adequate
                                                              Selects vendor and
                               funding available
                                                            creates purchase order
                                 for purchase




                                                              Procurement agent
                                 Attaché signs
                                                               contacts vendor,
                               purchase order to
                                                               completes order,
                               approve payment
                                                             and makes purchase




                                                             Vendor sends purchase      Executes payment
                                Receives good               to GSO Receiving Office     after receipt of item
                                  or service                  or directly to ICE OIA        and invoice




                        Figure 1. ICE OIA Overseas Acquisitions Process

Results of Review
       Improvements Have Been Made; Vulnerabilities Remain in
       Overseas Procurement
                ICE OIA implemented several policy, procedural, and organizational
                changes to improve its internal controls and reduce the chance that an
                employee could improperly acquire, use, or dispose of assets. However,
                vulnerabilities remain in the overseas procurement process.




Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                   Page 8
                        ICE OIA Changes Reduced Some Internal Controls
                        Vulnerabilities

                        In November 2007, ICE OIA reorganized the structure of its field
                        office divisions. Prior to November 2007, ICE OIA attaché offices
                        were divided into three geographic areas—Americas; Europe,
                        Africa, and the Middle East; and Asia and the Pacific. In
                        November 2007, ICE OIA split the Americas division into two
                        areas—North America and Central/South America—creating four
                        overall operational areas. An operations chief directs each area.
                        By splitting the Americas area into two separate areas, the
                        respective operations chiefs can provide better oversight over
                        attaché activities.

                        Vehicle Acquisitions for Field Offices

                        Prior to FY 2008, individual attaché offices completed the
                        procurement process for all vehicles overseas. After learning that
                        a senior ICE OIA official at one post was able to steer $2.8 million
                        in sole source U.S. government contracts to a foreign company for
                        purchasing and armoring vehicles, ICE OIA implemented changes
                        to its vehicle acquisition process. Specifically, ICE OIA
                        headquarters now conducts the acquisition of armored vehicles for
                        all overseas offices and sole source purchases are not allowed. All
                        armored vehicles must now be purchased and armored in the
                        United States and then shipped to the foreign post.

                        Individual attaché offices continue to execute nonarmored vehicle
                        purchases; however, those purchases must be made through the
                        DOS acquisition process at the embassy. All vehicle purchases
                        must be competitively bid. In addition, ICE OIA headquarters
                        must send a procurement cable and a funding cable directly to the
                        post approving the purchase and certifying funds availability.

                        Liaison Expenditures

                        In September 2008, ICE OIA issued interim guidance to attaché
                        offices regarding funding for liaison expenditures. ICE
                        representatives use liaison funds to host meals or other social
                        functions for building relationships with law enforcement
                        counterparts in the foreign government. The guidance requires
                        prior ICE OIA headquarters approval of liaison expenditures above
                        $500, and requires ICE representatives to deduct the cost of his or
                        her meal and beverage—up to $15 each—from the requested
                        reimbursement. The guidance also requires the ICE representative
                        to draft an internal memorandum documenting the meeting,

Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 9
                        including the purpose, related case, list of attendees, expenditure
                        amount, and the deduction for ICE representatives in attendance.
                        The September 2008 guidance ensures that the appropriate level of
                        ICE OIA management knows about significant activities with
                        foreign liaisons.

                        Additional Controls Needed to Address Remaining
                        Vulnerabilities

                        While ICE OIA did improve its overseas control environment,
                        vulnerabilities remain in ICE OIA’s acquisitions process. Because
                        ICE OIA relies on DOS to complete most of the acquisitions
                        process overseas, ICE OIA must ensure that proper controls exist
                        for the areas under its control.

                        Overseas, the ICE attaché is the senior approving official and is
                        responsible for purchase activities at posts. All procurement
                        requests and resulting purchase orders require a signature
                        authorizing the purchase. While DOS should process only signed
                        purchase requests, DOS is not responsible for verifying whether
                        attachés have properly authorized ICE purchase requests. ICE is
                        solely responsible for ensuring that attachés, or staff to whom they
                        have delegated their authority, are properly approving purchases.
                        The ICE attaché’s review and approval provides a control for
                        authorizing ICE funds at posts overseas. If the attaché is not
                        reviewing and signing all procurement requests and purchase
                        orders, ICE acquisitions are vulnerable to fraud, waste, or abuse.

                        Conditions in some overseas offices showed vulnerabilities in ICE
                        OIA acquisitions practices. At one post, when the attaché was out
                        of the office, staff used a stamp of the attaché’s signature to sign
                        procurement requests and purchase orders. While this practice
                        occurs infrequently under the current attaché, all office staff know
                        the location of and have access to the unsecured signature stamp.
                        A senior ICE OIA headquarters official said that the use of
                        signature stamps is not allowed; however, there is no written
                        policy to support that prohibition. Without this guidance, there is
                        no control over the use of signature stamps at ICE OIA offices
                        overseas, thus creating an opportunity for forged approval
                        signatures on procurement documents.

                        In addition, our review of procurement documents at one post
                        showed that on several occasions a former attaché and a former
                        mission support specialist had been able to sign approvals for self-
                        reimbursements through electronic fund transfers. Opportunities
                        for misuse and abuse increase when one person controls all

Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                               Page 10
                        significant phases of the acquisition process. This breaks down the
                        separation of duties that is necessary to maintain effective controls
                        over ICE purchases. Having different people approve, make,
                        receive, and certify payment for a purchase limits opportunity for
                        abuse.

                        Because it is not DOS’ responsibility, ICE must ensure that
                        purchases are authorized and signed properly prior to submission
                        to DOS. At three posts we visited, several procurement requests or
                        purchase orders were submitted to and processed by DOS without
                        the attaché signature. At other posts, DOS was more stringent in
                        verifying the signature of the attaché and recognizing the proper
                        authorities’ signatures. At two posts we visited, DOS officials said
                        that documentation outlining proper ICE signatory authorities
                        would be beneficial. However, ICE is not required to provide
                        DOS verification of proper ICE attaché or designee signatures.
                        Absence of this documentation impedes ICE OIA headquarters
                        from conducting effective oversight.

                        Vulnerabilities in the acquisitions process exist because control
                        measures have not been established for ICE OIA overseas offices.
                        According to GAO, a sound control environment requires that an
                        agency clearly define key areas of authority and responsibility.
                        The control environment also is affected by the manner in which
                        these key areas are delegated throughout the environment.
                        Delegation covers authority and responsibility for operating
                        activities, as well as authorization practices.

                        Developing control measures for ICE OIA acquisitions operating
                        activities at its foreign posts and providing guidance on
                        authorization practices, signatory authority, and appropriate
                        documentation of procurement transactions promote a positive
                        control environment overseas. These measures also promote
                        accountability over the purchase of supplies and services overseas
                        and ensure vulnerabilities are minimized.

                Recommendations
                        We recommend that the Assistant Secretary for U.S. Immigration
                        and Customs Enforcement:

                        Recommendation #1: Develop and implement control measures
                        to ensure acquisitions by overseas ICE offices are appropriately
                        approved and documented.



Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                               Page 11
                Management Comments and OIG Analysis
                        ICE provided written comments on our draft report. We evaluated
                        these comments and have made changes to the report where we
                        deemed appropriate. Below is a summary of the ICE response to
                        the report’s first recommendation and our analysis. A copy of the
                        ICE response, in its entirety, is included as Appendix B.

                        Management Comments to Recommendation #1

                        ICE concurred with the recommendation. In its response, ICE
                        indicated that ICE OIA has taken steps to increase internal controls
                        over its acquisitions. New controls include a system of automated
                        funds control, a mandate that overseas purchases above the micro-
                        purchase authority be approved by ICE OIA headquarters, a
                        coordination mechanism for international training, and more robust
                        review and approval requirements for liaison expenditures. ICE
                        OIA will also prohibit the use of signature stamps and self-
                        reimbursements, and will work with DOS to validate attaché
                        signatures.

                        OIG Analysis

                        This recommendation is resolved and open pending receipt and
                        review of documentation of the new controls.

       ICE OIA Needs to Improve Oversight of Field Offices

                        Headquarters Can Improve Acquisitions Oversight

                        The Assistant Secretary’s September 2007 memorandum described
                        a process to oversee whether ICE OIA acquisitions follow federal
                        regulations. ICE OAQ reviews a sample of acquisitions that
                        exceed the threshold amount of $2,500 to ensure compliance with
                        federal regulations on competition. After receiving a list of
                        qualifying acquisitions from ICE OIA, OAQ randomly audits two
                        purchases per quarter to verify that proper acquisitions processes
                        prescribed in the FAR, Department of State Acquisition Regulation
                        (DOSAR), and ICECAPS were followed. OAQ obtains all
                        supporting documentation for post purchases through headquarters;
                        it does not communicate directly with the foreign posts. Should
                        any problems arise, OAQ works with ICE OIA headquarters to
                        obtain additional supporting documentation. Figure 2 illustrates
                        this process. In response to OAQ’s first audit of ICE OIA
                        acquisitions overseas, ICE OIA is beginning to liaise with the DOS


Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                               Page 12
                        Procurement Office. This is a positive step in aiding OAQ audits
                        of future ICE OIA purchases.


                          Headquarters Oversight over ICE OIA Overseas Acquisitions




                          Overseas Offices
                                                                               Collects

                              ICE OIA
                                                           Retains
                                                                              supporting
                                                         procurement                            Forwards
                                                                           documentation
                                                        documentation;                        Documentation
                                                                            for requested
                                                      Reports purchases
                                                                               purchase
                                                       exceeding $2500
                          Headquarters




                                                                               Requests
                            ICE OIA




                                                          Submits list                          Receives
                                                                                purchase
                                                         of purchases                         documentation;
                                                                            documentation
                                                       exceeding $2500                           forwards
                                                                             from ICE OIA
                                                           for review                           for review
                                                                           overseas offices
                          ICE Office of Acquisition
                               Management




                                                       Randomly selects
                                                                           Submits request
                                                      2 ICE OIA overseas                          Reviews
                                                                            for supporting
                                                        office purchases                      documentation
                                                                           documentation
                                                       exceeding $2500                        for compliance
                                                                             for selected
                                                         for review each                      with regulations
                                                                              purchases
                                                              quarter




                        Figure 2. ICE Review Process for Overseas Acquisitions

                        According to an OAQ procurement analyst, OAQ does not receive
                        a report from DOS and does not have independent knowledge of
                        the total volume of ICE OIA acquisitions that exceed $2,500 for
                        the year. The analyst does not have independent access to identify
                        ICE OIA purchases greater than this amount and reviews only
                        qualifying procurements sent to OAQ by ICE OIA. Steps to
                        ensure the authenticity of the lists are not performed. This limits
                        OAQ’s ability to perform independent oversight because it only
                        reviews files submitted by foreign posts and ICE OIA
                        headquarters. Additionally, OAQ review of ICE OIA procurement

Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                                Page 13
                        documentation does not include confirmation of purchase
                        approvals by the appropriate approving authority at foreign posts,
                        whether ICE attachés or their designees.

                        ICE OIA headquarters has made efforts to improve oversight over
                        ICE OIA acquisitions overseas but more is needed. To ensure
                        effective oversight over its purchases, ICE should develop a plan
                        that, at minimum, ensures independent analysis of foreign posts’
                        acquisitions and review of procurement files to confirm
                        appropriate signatory authorities and acquisition approvals exist.
                        Without this plan, it will be difficult to ensure that ICE is
                        conducting the oversight necessary to prevent wasteful or
                        fraudulent overseas acquisitions.

                        Accountable Property Tracking System Information Is Not
                        Always Accurate

                        Several federal and departmental policies regulate the management
                        and accountability of government property. Government property
                        is accountable and subject to controls to track its physical location
                        from acquisition through use and disposition. Some government
                        property that meets specific criteria, however, must be tracked in
                        an asset management system. The Sunflower Asset Management
                        System is DHS’ property tracking tool.

                        ICE guidance specifies that all property with an original
                        acquisition value of $5,000 or greater, as well as sensitive
                        property, are accountable and must be tracked in Sunflower.
                        Table 1 provides examples of categories of accountable property.

                                     Category                          Examples
                           All property with an original     Vehicles, office equipment,
                                 acquisition value           software, personal property,
                                of $5,000 or greater                leased property
                            Sensitive property includes       BlackBerrys, thumb drives,
                         anything requiring a high degree laptops, portable digital assistants,
                          of protection and controls and         desktop computers,
                                   holds memory               global positioning systems
                        Table 1. Examples of Accountable Property in Sunflower

                        The ICE Office of Asset Management, which is ultimately
                        responsible for accountable property, requires that all ICE offices,
                        including ICE OIA, conduct a physical inventory annually to ensure
                        that all new and existing accountable property is in Sunflower. The
                        ICE Office of Asset Management provides instructions for
                        conducting the annual inventory to ICE OIA two to four weeks prior
                        to commencing the inventory. ICE OIA’s Headquarters Personal
                        Property Manager then forwards the inventory information to ICE
Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                               Page 14
                        OIA offices overseas, where the post’s Accountable Property
                        Officer and designated staff are responsible for conducting a
                        physical inventory of all accountable property at post. Once posts
                        complete their inventories, they provide ICE OIA headquarters with
                        the results and updated Sunflower information. ICE OIA
                        headquarters enters property information into Sunflower for
                        overseas posts that cannot access the system. ICE OIA overseas
                        offices with access to Sunflower are responsible for entering their
                        property information into the system.

                        We visited seven ICE OIA overseas offices and conducted a
                        physical inventory of a random sample of ICE accountable
                        property at each post. We were able to match actual property for
                        most items inventoried in Sunflower; however, there were
                        discrepancies. At a few posts, the barcode number, owner, and
                        physical location did not correspond to the post’s Sunflower report.
                        There were also inconsistencies in entering and tracking
                        information in Sunflower across the ICE OIA overseas offices.
                        Some accountable property, such as BlackBerrys, laptops, and
                        global positioning systems, were not entered into Sunflower. Staff
                        at two posts said they were unclear regarding what items should be
                        entered into Sunflower. Staff at other posts said that some of the
                        property was sent from headquarters, and they were uncertain why
                        the items were not already entered into the system. Staff at another
                        office said that items were acquired at posts, but were not updated
                        in Sunflower when the items were obtained because of issues
                        pertaining to accessing the system. Consequently, the information
                        was sent to ICE OIA headquarters for entry into Sunflower. Staff
                        also said that accountable property was added during the annual
                        inventory.

                        The accuracy of information entered into Sunflower is important
                        for property management purposes. Without accurate information
                        maintained in Sunflower, the probability for accountable property
                        to be lost, stolen, or misused increases. All Sunflower users should
                        understand the importance of entering and maintaining accurate
                        property information in ICE’s property tracking system. The better
                        staff understands what should be entered into Sunflower and their
                        roles and responsibilities regarding entering and tracking
                        government property in the system, the more accountability there
                        will be in managing government property.

                        Self Inspection Program Identifies Deficiencies

                        All 54 ICE attaché offices completed their first ICE OIA-specific
                        self-inspections in April 2009. The self-inspections provide the

Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                               Page 15
                        respective attaché with an indication of whether the office is in
                        compliance with policies and procedures covered by the SIP and
                        what areas need improvement. Each office submitted to ICE OPR
                        the results of its self-inspection, including audit trail documentation
                        and certification memorandum. The self-inspections identified
                        deficiencies across SIP areas and attaché offices, and the attaché
                        included a corrective action plan for each deficiency in the
                        certification memorandum.

                        We reviewed the SIP documentation submitted online to ICE OPR
                        by 27 attaché offices. Some of these offices completed draft self-
                        inspection worksheets which included areas or activities that ICE
                        OPR ultimately removed from the final ICE OIA-specific SIP
                        worksheets, such as classified material or pay administration.
                        Other offices did not complete one or more of the nine ICE OIA-
                        specific SIP areas, such as case management, asset management, or
                        travel administration. In addition, offices responded differently to
                        areas that applied to some offices but not to others. For example,
                        not all offices use purchase cards. However, some offices did not
                        complete the SIP for this area while others completed the SIP but
                        indicated that the office does not have a purchase card. Still other
                        offices without purchase cards indicated that there had been no
                        activity in the purchase card area during the past year. Guidance to
                        ensure that all offices complete the SIP in the same manner during
                        future self-inspections likely would be helpful as ICE OPR reviews
                        and adjusts the ICE OIA-specific and other ICE component SIPs.

                        All posts identified deficiencies in at least one area during their
                        respective self-inspections. If one sample inspected for an activity
                        was not in compliance, then that activity was identified as a
                        deficiency. Of the offices that responded to the respective SIP
                        areas, 100% identified deficiencies in the case management area,
                        68% in asset management area, 65% in the travel administration
                        area, and 56% in the IT security area.

                        Within the case management area, three activities were commonly
                        identified as deficiencies: opening cases, completing the initial
                        case report of investigation, and completing initial responses to
                        collateral investigations in a timely manner. Of the documentation
                        we reviewed, 26 of 27 offices completed the case management
                        SIP. Of those 26 offices, 19 identified deficiencies in opening
                        cases in a timely manner, and 24 offices identified deficiencies in
                        completing initial reports of investigation and responses to
                        collateral investigations. Certification memoranda submitted by
                        the attaché offices documented corrective actions taken regarding
                        case management, including reminding agents of the requirements

Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                               Page 16
                        and referring them to the case management handbook. Given the
                        unique environment in which overseas offices operate, these
                        deficiencies also could indicate a possible need for policy or
                        procedural changes in the international environment.

                Recommendations
                        We recommend that the Assistant Secretary for U.S. Immigration
                        and Customs Enforcement:

                        Recommendation #2: Develop a plan to monitor and objectively
                        analyze ICE acquisition activities at overseas locations that, at
                        minimum, outlines steps to require verification of acquisitions
                        approvals at foreign posts and obtain procurement documentation
                        independent of the Office of International Affairs.

                        Recommendation #3: Provide additional guidance to ICE Office
                        of International Affairs overseas offices that specifies the
                        government property to be entered into the Sunflower Asset
                        Management System and clarifies ICE inventory policies, roles,
                        responsibilities, and processes to ensure that accountable property
                        is entered and tracked accurately on a timely basis.

                Management Comments and OIG Analysis

                        Management Comments to Recommendation #2

                        ICE concurred with the recommendation. ICE OIA implemented
                        an automated funds control system and implemented additional
                        accounting controls to ensure that individual attaché offices do not
                        deviate from their approved spend plans without prior approval by
                        ICE OIA headquarters. ICE OIA also instructed attaché offices to
                        run monthly reports through DOS to enable ICE OIA headquarters
                        to track attaché expenditures and ensure oversight of spend plans.
                        In addition, overseas purchases above the micro-purchase authority
                        are procured by DOS in accordance with DOS acquisition policies
                        and regulations, and attaché offices must report these purchases to
                        ICE OIA headquarters. The information is provided to ICE OAQ
                        for random sampling of purchases for compliance with applicable
                        policies and regulations.

                        OIG Analysis

                        This recommendation is resolved and open pending receipt and
                        review of additional information regarding the automated funds
                        control system and accounting controls. ICE should also provide

Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                               Page 17
                        information on how ICE OAQ will include verification of
                        acquisitions approvals during its review process and ensure that
                        they can independently obtain information regarding ICE OIA
                        purchases that exceed $2,500.00.

                        Management Comments to Recommendation #3

                        ICE concurred with the recommendation. The ICE Office of Asset
                        Management, within the Office of the Chief Financial Officer, is
                        responsible for establishing personal property management policies
                        and controls, providing personal property management training,
                        and conducting quality assurance on data stored in Sunflower. The
                        office also coordinates ICE’s annual inventory process. In early
                        2009, the Office of Asset Management published guidance on ICE
                        inventory policies, roles, responsibilities and processes to ensure
                        appropriate accounting of all ICE property. ICE OIA will adhere
                        to these policies now that they have been established.

                        OIG Analysis

                        Following a review of additional documentation submitted by ICE
                        OIA, this recommendation is resolved and closed.

       ICE OIA Needs to Ensure Compliance With Foreign Tour of
       Duty Policy
                Although ICE has a policy regarding the length of time employees can be
                assigned to foreign offices, ICE human resources personnel do not verify
                whether individuals have previously been assigned overseas or for how
                long. In addition, some non-mission support personnel continue to remain
                in their overseas assignments beyond the allowed time limit.

                According to ICE policy, ICE personnel, except mission support
                specialists, can be assigned overseas for no more than five years at a time
                with no more than a total of ten years in foreign assignments during their
                entire career with ICE. Non-mission support personnel could be special
                agents, intelligence research specialists, or other personnel who are not
                mission support specialists. The time limitation includes time served
                overseas with legacy agencies, such as U.S. Customs or U.S. Immigration
                and Naturalization Service. Mission support specialists can be assigned
                overseas for 15 years over their entire career at ICE. The ICE OIA
                director may approve exceptions to these requirements.

                Human resources personnel in the Human Resources Division in Dallas,
                Texas, which provides personnel selection and payroll benefit support
                services for ICE OIA, said that they do not check for prior foreign

Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                               Page 18
                assignments when verifying a job candidate’s qualifications for overseas
                deployment. When human resources personnel receive responses to an
                ICE OIA vacancy announcement, they review the applications to
                determine whether applicants meet the qualifications for a posted job, but
                this review does not include verifying the length of time an applicant may
                have already served in an overseas position. In addition, the office does
                not clarify prior time overseas once ICE OIA selects an applicant for a
                specific position from the list of qualified candidates. By not verifying
                whether a candidate for a foreign assignment has previously served
                overseas, ICE OIA could select an individual who may not be qualified
                based on the foreign tour of duty policy.

                In addition, ICE OIA continues to have non-mission support personnel
                assigned overseas longer than five years. As of April 2, 2009, ICE OIA
                had 183 personnel overseas—170 non-mission support and 13 mission
                support personnel. Of the 170 non-mission support personnel, 63 were in
                the first year of their assignment, 52 were in their second year, 37 were in
                their third year, 6 were in their fourth year, and 3 were in their fifth year.
                Nine special agents were beyond five years in their current assignment,
                with two of these agents beyond six years.

                According to the April 2, 2009, rotation report maintained by ICE OIA
                headquarters, only four of the nine special agents who were already
                beyond five years overseas had received extensions. There was no
                indication in the rotation report of whether tour extensions had been
                granted for the other five agents. For one of the four agents who received
                an extension, the tour extension date expired in February 2009. There was
                no indication in the report of whether this agent had received an additional
                tour extension.

                As of April 2, 2009, all 13 overseas mission support personnel were within
                the allowed time limits according to the ICE OIA rotation report.
                However, the records kept by ICE OIA headquarters track only the
                employee’s current foreign assignment. The rotation report kept by ICE
                OIA human resources personnel could not identify that one mission
                support specialist had previously completed 10 years of foreign
                assignments. The mission support specialist recently received a tour
                extension, which will bring time served in the current assignment to five
                years and total time served overseas to 15 years. Because prior foreign
                assignments are not included in the rotation report or otherwise tracked,
                this mission support specialist possibly could receive another tour
                extension even though the employee will reach the 15-year limit upon
                completion of the current assignment.

                ICE OIA uses its rotation report to track current foreign assignments for
                both mission support and non-mission support personnel. When personnel

Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                               Page 19
                rotate from a foreign assignment to a domestic assignment, ICE OIA has
                begun to copy the information from the current foreign assignment to
                another page in the rotation report. However, the rotation date for most
                employees is not updated to note the actual departure date from post,
                leaving the original planned departure date based on the employee’s entry
                on duty date at the post in the report. If an employee who rotated out of a
                foreign assignment, and whose foreign assignment information was
                transferred to the rotated-out section of the report, decided to apply for
                another foreign assignment, ICE OIA would be unable to use the report to
                determine with certainty the amount of time previously spent in a foreign
                assignment. According to an ICE OIA official, the only way to track prior
                foreign assignments, aside from the rotation report, would be to review
                each employee’s official personnel file. To ensure compliance with the
                policy, ICE must establish procedures to determine whether personnel
                selected for foreign assignments qualify for the assignment, and must
                track foreign assignments and tour extensions of overseas personnel.

                Recommendations
                        We recommend that the Assistant Secretary for U.S. Immigration
                        and Customs Enforcement:

                        Recommendation #4: Establish and implement procedures to
                        ensure compliance with the ICE foreign tour of duty policy and
                        track ICE OIA foreign assignments and extensions.

                Management Comments and OIG Analysis

                        Management Comments to Recommendation #4

                        ICE concurred with the recommendation. Since February 2007,
                        ICE OIA has had direct authority over its international placements.
                        To ensure compliance with the foreign tour of duty policy, ICE
                        OIA added language to overseas vacancy announcements
                        regarding the maximum length of overseas assignments. In
                        addition, ICE OIA is establishing a database to track the overseas
                        assignments and extensions of all ICE employees.

                        OIG Analysis

                        This recommendation is resolved and open pending receipt and
                        review of additional information regarding the database for
                        tracking overseas assignments and extensions.




Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                               Page 20
Appendix A
Purpose, Scope, and Methodology

                         We reviewed the management and oversight of ICE OIA internal
                         controls for acquisitions and employee integrity processes to
                         evaluate weaknesses identified by prior OIG Investigations work.
                         Specifically, the objectives of our review were to determine:
                         (1) what management review and oversight is performed to ensure
                         that ICE OIA employees understand and are following applicable
                         procurement policies and procedures; (2) whether internal controls
                         are effective at preventing or detecting the unauthorized
                         acquisition, use, or disposition of assets; (3) the appropriateness of
                         corrective actions when internal controls identify potential
                         unauthorized activities; and (4) whether ICE OIA tests its policies
                         and procedures periodically to ensure that internal controls are
                         working as intended.

                         We reviewed applicable laws, regulations, and directives regarding
                         internal controls and the federal acquisitions process. We also
                         reviewed policies, procedures, and training materials used by ICE
                         OIA. In addition, we reviewed budget, acquisition, personnel,
                         training, travel, property, and other records and documentation at
                         both ICE headquarters and attaché offices. Finally, we reviewed
                         oversight records, including self-inspection documentation,
                         reports, and corrective action plans.

                         We conducted 81 interviews with officials within ICE and DOS at
                         headquarters and overseas. We conducted site visits to ICE OIA
                         attaché offices in Bogotá, Colombia; Brasilia, Brazil; London,
                         United Kingdom; Mexico City and Monterrey, Mexico; Madrid,
                         Spain; and Rome, Italy. In addition to interviews at the posts, we
                         reviewed ICE OIA attaché office files and documentation in
                         several self-inspection areas including budget and procurement
                         documentation for FYs 2006 to 2009.

                         We began fieldwork in October 2008 and ended in July 2009. This
                         review was conducted under the authority of the Inspector General
                         Act of 1978, as amended, and according to the Quality Standards
                         for Inspections issued by the President’s Council on Integrity and
                         Efficiency.




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 21
Appendix B
Management Comments to the Draft Report




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 22
                                      FOR OFFICIAL USE ONLY
Appendix B
Management Comments to the Draft Report




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 23
                                      FOR OFFICIAL USE ONLY
Appendix B
Management Comments to the Draft Report




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 24
Appendix C
ICE Assistant Secretary Memorandum to DHS Deputy Secretary




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 25
Appendix C
ICE Assistant Secretary Memorandum to DHS Deputy Secretary




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 26
Appendix C
ICE Assistant Secretary Memorandum to DHS Deputy Secretary




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 27
Appendix C
ICE Assistant Secretary Memorandum to DHS Deputy Secretary




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 28
Appendix C
ICE Assistant Secretary Memorandum to DHS Deputy Secretary




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 29
Appendix C
ICE Assistant Secretary Memorandum to DHS Deputy Secretary




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 30
Appendix D
Major Contributors to This Report


                         Douglas Ellice, Chief Inspector, Office of Inspections
                         Jennifer A. Lindsey, Lead Inspector, Office of Inspections
                         E. Kristine Odiña, Senior Inspector, Office of Inspections
                         Matthew R. Noll, Program Analyst, Office of Audits




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 31
Appendix E
Report Distribution


                         Department of Homeland Security

                         Secretary
                         Deputy Secretary
                         Chief of Staff for Operations
                         Chief of Staff for Policy
                         Deputy Chiefs of Staff
                         General Counsel
                         Executive Secretariat
                         Director, GAO/OIG Liaison Office
                         Assistant Secretary for Office of Policy
                         Assistant Secretary for Office of Public Affairs
                         Assistant Secretary for Office of Legislative Affairs
                         ICE Audit Liaison

                         Office of Management and Budget

                         Chief, Homeland Security Branch
                         DHS OIG Budget Examiner

                         Congress

                         Congressional Oversight and Appropriations Committees, as
                         appropriate




 Management and Oversight of ICE OIA Internal Controls for Acquisitions and Employee Integrity Processes

                                                Page 32
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
